      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




December 28, 2011

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Review of Medicaid Personal Care Claims Submitted by Providers in New Jersey
              (A-02-09-01002)


Attached, for your information, is an advance copy of our final report on Medicaid personal care
claims submitted by providers in New Jersey. We will issue this report to the New Jersey
Department of Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or James
P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620 or through
email at James.Edert@oig.hhs.gov. Please refer to report number A-02-09-01002.


Attachment
                                                                          Office of Inspector General
    DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Audit Services


                                                                          Region II
                                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278
December 29, 2011

Report Number: A-02-09-01002

Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Personal Care Claims Submitted by
Providers in New Jersey. We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kevin W. Smith, Audit Manager, at (518) 437-9390, extension 232, or through email at
Kevin.Smith@oig.hhs.gov. Please refer to report number A-02-09-01002 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF MEDICAID
  PERSONAL CARE CLAIMS
 SUBMITTED BY PROVIDERS
     IN NEW JERSEY




                       Daniel R. Levinson
                        Inspector General

                         December 2011
                         A-02-09-01002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In New Jersey (the State), the Department of Human Services (DHS) is the State agency
responsible for operating the Medicaid program. Within DHS, the Division of Medical
Assistance and Health Services administers the Medicaid program. DHS’s Division of Disability
Services (DDS) oversees the State’s personal care services program.

Pursuant to 42 CFR § 440.167, personal care services are generally furnished to individuals
residing in their homes and not residing in hospitals, nursing facilities, intermediate care
facilities for the mentally retarded, or institutions for mental diseases. Medicaid beneficiaries are
authorized for personal care services by a physician in accordance with a plan of treatment or
with a service plan approved by each State. Pursuant to the State’s regulations: (1) a physician
must certify the beneficiary’s need for personal care services; (2) a registered nurse must perform
an initial assessment and a reassessment of the beneficiary’s need for such services at least once
every 6 months and prepare a plan of care for the personal care assistant to implement; (3) the
provider must notify DHS of the initial assessment or reassessment, and DDS must provide prior
authorization to claim Medicaid reimbursement for personal care services; (4) a registered nurse
must provide direct supervision of the personal care assistant at least once every 60 days or more
often, as required; (5) personal care assistants must be certified by the New Jersey Board of
Nursing and receive inservice education from the provider; and (6) providers must document the
time spent providing personal care services. Examples of personal care services include
cleaning, shopping, grooming, and bathing.

OBJECTIVE

The objective of our review was to determine whether the State claimed Federal Medicaid
reimbursement for personal care services claims submitted by providers in accordance with
Federal and State requirements.

SUMMARY OF FINDINGS

The State did not claim Federal Medicaid reimbursement for some personal care services claims
submitted by providers in accordance with all Federal and State requirements. Of the 100 claims
in our random sample, 64 complied with Federal and State requirements, but 36 did not.




                                                  i
Of the 36 noncompliant claims, 14 contained more than 1 deficiency:

   •   For 17 claims, DDS did not issue a prior authorization.

   •   For 13 claims, the personal care assistant did not receive inservice education.

   •   For eight claims, there was no nursing supervision.

   •   For seven claims, there was no documentation of services.

   •   For five claims, there was no nursing assessment.

   •   For two claims, the personal care assistant was not certified by the New Jersey Board of
       Nursing.

   •   For one claim, there was no plan of care.

   •   For one claim, there was no physician’s authorization.

These deficiencies occurred because the State did not effectively monitor the personal care
services program for compliance with certain Federal and State requirements.

Based on our sample results, we estimated that the State improperly claimed $145,405,192 in
Federal Medicaid reimbursement during our January 1, 2004, through December 31, 2007, audit
period.

RECOMMENDATIONS

We recommend that the State agency:

       •   refund $145,405,192 to the Federal Government and

       •   improve its monitoring of the personal care services program to help ensure
           compliance with Federal and State requirements.

DEPARTMENT OF HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DHS generally disagreed with our recommendations. In
addition, DHS stated that the sample claims associated with one provider should be excluded
from our sample frame because the provider was an outlier that did not represent the work done
by other providers. DHS also provided 41 pages of additional documentation for 8 sample
claims under separate cover. We maintain that our statistically valid statewide random sample
fairly represented personal care services claims submitted by DHS, including those submitted on
behalf of the outlier provider and, therefore, we did not change our original determination for the
8 sampled claims. After reviewing DHS’s comments and additional documentation, we revised


                                                ii
our findings and modified our statistical estimates accordingly. DHS’s comments appear in their
entirety as Appendix D.




                                              iii
                                                   TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            New Jersey’s Medicaid Program .......................................................................1
            New Jersey’s Personal Care Services Program .................................................1
            Federal and State Requirements Related to Personal Care Services .................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope .................................................................................................................3
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          NO PRIOR AUTHORIZATION .............................................................................4

          INSERVICE EDUCATION REQUIREMENT NOT MET ....................................5

          NO NURSING SUPERVISION ..............................................................................5

          SERVICES NOT SUPPORTED BY DOCUMENTATION ...................................5

          NO NURSING ASSESSMENT ..............................................................................5

          PERSONAL CARE ASSISTANT NOT CERTIFIED ............................................6

          NO PLAN OF CARE...............................................................................................6

          NO PHYSICIAN’S AUTHORIZATION ................................................................6

          CAUSES OF UNALLOWABLE CLAIMS ............................................................6

          ESTIMATE OF THE UNALLOWABLE AMOUNT.............................................7

          RECOMMENDATIONS .........................................................................................7

          DEPARTMENT OF HUMAN SERVICES COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................7
            No Prior Authorization ......................................................................................7
            Inservice Education Requirement Not Met........................................................8
            No Nursing Supervision .....................................................................................8
            Services Not Supported by Documentation .......................................................9


                                                                     iv
            No Nursing Assessment .....................................................................................9
            Personal Care Assistant Not Certified ...............................................................9
            Incorrect Reimbursement Rate ........................................................................10
            No Plan of Care ................................................................................................10
            No Physician’s Authorization ..........................................................................10
            Claims Related to One Provider ......................................................................11
            Personal Care Services Program Monitoring ...................................................12

OTHER MATTER: BENEFICIARY-IDENTIFIED PROBLEMS
 WITH PERSONAL CARE SERVICES .....................................................................12

        PERSONAL CARE ASSISTANT ENGAGED IN ACTIVITIES
         NOT RELATED TO CARE ...............................................................................13

        THEFT OF PROPERTY........................................................................................13

        LANGUAGE BARRIER WITH PERSONAL CARE ASSISTANT....................13

        VERBAL ABUSE BY PERSONAL CARE ASSISTANT ...................................14

APPENDIXES

        A: FEDERAL AND STATE REQUIREMENTS RELATED TO
            PERSONAL CARE SERVICES

        B: SAMPLE DESIGN AND METHODOLOGY

        C: SAMPLE RESULTS AND ESTIMATES

        D: STATE AGENCY COMMENTS




                                                                 v
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

New Jersey’s Medicaid Program

In New Jersey (the State), the Department of Human Services (DHS), is the State agency
responsible for operating the Medicaid program. Within DHS, the Division of Medical
Assistance and Health Services administers the Medicaid program. DHS employees work at
Medical Assistance Customer Centers (MACC) throughout the State to assist Medicaid
beneficiaries. DHS uses the Medicaid Management Information System (MMIS), a
computerized payment and information reporting system, to process and pay Medicaid claims,
including personal care services claims. The Federal Government’s share of costs is known as
the Federal medical assistance percentage (FMAP). From January 1, 2004, to June 30, 2004, the
FMAP in New Jersey was 52.95 percent and from July 1, 2004, through December 31, 2007, the
FMAP was 50 percent.

New Jersey’s Personal Care Services Program

The State’s personal care services program is operated by DHS’s Division of Disability Services
(DDS). The purpose of the State’s personal care services program is to accommodate
beneficiaries’ need for long-term chronic or maintenance health care, as opposed to their need
for short-term skilled care required for some acute illnesses. Pursuant to New Jersey
Administrative Code (NJAC) 10:60-3.1, personal care services “include personal care, household
duties and health related tasks performed by a qualified individual in a beneficiary’s place of
residence, under the supervision of a registered nurse, as certified by a physician in accordance
with a written plan of care.”

During our audit period, the State phased in guidance to providers requiring them to obtain prior
authorization for personal care services through a State-mandated procedure. On a county-by-
county basis, beginning in 1998, DHS required certain providers to obtain prior authorizations
for personal care services. Effective July 3, 2006, the State amended its regulations to
incorporate this requirement. Before issuing this guidance, the State required providers to
submit, within 5 days of a provider’s assessment or reassessment, a Form CMS-485, Home
Health Certification and Plan of Care (CMS-485), to the MACC serving the county in which the
beneficiary resided (NJAC 10:60-1.8(a)).



                                                1
Under the State’s mandated prior authorization procedures, a registered nurse must see the
beneficiary face-to-face and complete an evaluation form that includes information on 10
elements used to measure the beneficiary’s need for personal care services. The provider
transmits the evaluation form with a prior authorization request to DDS, which determines the
number of hours of personal care services authorized for the beneficiary (NJAC 10:60-3.9).

DDS requires all personal care providers to be accredited by one of four accrediting
organizations. Beginning in 2005, DDS required the accrediting organizations to review
providers’ compliance with the State’s regulations (NJAC 10:60-1.2; NJAC 10:60-3.1(a)). 1

Federal and State Requirements Related to Personal Care Services

The State and providers must comply with certain Federal and State requirements in determining
and redetermining whether beneficiaries are eligible for personal care services. Pursuant to
section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167),
personal care services must be: (1) authorized for an individual by a physician in a plan of
treatment or in accordance with a service plan approved by the individual State; (2) provided by
an individual who is qualified to provide such services and who is not a member of the
individual’s family; and (3) furnished in a home or, at the State’s option, in another location.

Pursuant to Office of Management and Budget Circular A-87, Cost Principles for State, Local,
and Indian Tribal Governments, Att. A, § C.1.c (2 CFR, pt. 225, App. A, § C.1.c), to be
allowable under a Federal award, costs must be authorized or not prohibited by State or local
laws or regulations.

Chapter 60 of NJAC Title 10 establishes requirements for the State’s personal care services
program. These requirements include that a physician certify the need for personal care services,
a registered nurse perform an initial assessment and a reassessment at least once every 6 months,
and a registered nurse prepare a plan of care for the personal care assistant to implement. In
addition, personal care assistants must be certified by the New Jersey Board of Nursing, be under
the supervision of a registered nurse employed by a State agency-approved personal care
provider, and receive a minimum of 12 hours of inservice education per year from the provider.
Finally, providers must document the time spent providing personal care services. Appendix A
contains the specific Federal and State requirements related to personal care services.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether the State claimed Federal Medicaid
reimbursement for personal care services claims submitted by providers in accordance with
Federal and State requirements.



1
 DDS enters into memorandums of understanding with the accrediting organizations that specify the standards to be
applied in their reviews of providers.


                                                       2
Scope

Our review covered 19,554,975 claim lines totaling $1,058,406,073 ($533,133,954 Federal
share) submitted by personal care providers from January 1, 2004, through December 31, 2007.
(We refer to these lines in this report as “claims.”)

During our audit, we did not review the overall internal control structure of the State agency or
the Medicaid program. Rather, we limited our internal control review to those controls related to
the objective of our audit.

We conducted fieldwork at DHS’s offices in Trenton, New Jersey, and at 48 personal care
providers throughout the State.

Methodology

To accomplish our objective, we:

         • reviewed applicable Federal and State regulations and guidelines;

         • held discussions with DHS officials to gain an understanding of the personal care
           services program;

         • obtained a database from the MMIS fiscal agent of all Medicaid claims paid by the
           State for our audit period;

         • ran computer programming applications that identified 19,554,975 personal care
           services claims, totaling more than $1 billion ($533 million Federal share);

         • selected a simple random sample of 100 claims from the population of 19,554,975
           claims (Appendix B) for each of which we:

             o reviewed the corresponding personal care provider’s documentation supporting
               the claim, if available, and

             o visited the beneficiary or a member of the beneficiary’s family associated with the
               claim, if available, to inquire about the personal care services received; 2 and

         • estimated the unallowable Federal Medicaid reimbursement paid in the population of
           19,554,975 claims.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

2
  For various reasons (e.g., beneficiaries were deceased, had moved out of State), we were able to visit only 44 of
the 100 beneficiaries.


                                                          3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

The State did not claim Federal Medicaid reimbursement for some personal care services claims
submitted by providers in accordance with all Federal and State requirements. Of the 100 claims
in our random sample, 64 complied with Federal and State requirements, but 36 did not. Of the
36 noncompliant claims, 14 contained more than 1 deficiency. Table 1 summarizes the
deficiencies noted and the number of claims that contained each type of deficiency.

                       Table 1: Summary of Deficiencies in Sampled Claims
                                                                         Number of
                            Type of Deficiency                      Unallowable Claims 3
    No prior authorization                                                  17
    Inservice education requirement not met                                 13
    No nursing supervision                                                   8
    No documentation                                                         7
    No nursing assessment                                                    5
    Personal care assistant not certified                                    2
    No plan of care                                                          1
    No physician’s authorization                                             1

These deficiencies occurred because the State agency did not effectively monitor the personal
care services program for compliance with certain Federal and State requirements.

Based on our sample results, we estimated that the State agency improperly claimed
$145,405,192 in Federal Medicaid reimbursement during our January 1, 2004, through
December 31, 2007, audit period.

NO PRIOR AUTHORIZATION

Pursuant to NJAC 10:60-1.8(a), within 5 days of a provider’s assessment or reassessment, the
provider must submit a completed CMS-485 to the MACC that serves the county in which the
beneficiary resides. In addition, pursuant to State procedures implemented between 1998 and
2006, to obtain prior authorization, a registered nurse must provide a face-to-face evaluation of
the beneficiary and complete a form used to measure the beneficiary’s need for personal care
services.

Of the 100 claims in our sample, 17 were not preauthorized. 4


3
    The total exceeds 36 because 14 claims contained more than 1 error.
4
 For claims submitted before the State codified NJAC 10:60-3.9 (July 3, 2006), we questioned the claim only if no
CMS-485 was submitted and no prior authorization was obtained.


                                                           4
INSERVICE EDUCATION REQUIREMENT NOT MET

Pursuant to NJAC 10:60-1.2, personal care assistants must successfully complete a minimum of
12 hours of inservice education per year offered by the provider.

For 13 of the 100 claims in our sample, there was no evidence that the personal care assistant
received the minimum required inservice education during the calendar year in which the service
was provided or during the preceding 12 months. 5

NO NURSING SUPERVISION

NJAC 10:60-3.5(a)(2) states:

        Direct supervision of the personal care assistant must be provided by a registered
        nurse at a minimum of one visit every 60 days, initiated within 48 hours of the start
        of service, at the beneficiary’s place of residence during the personal care assistant’s
        assigned time. The purpose of the supervision is to evaluate the personal care
        assistant’s performance and to determine that the plan of care has been properly
        implemented.… Additional supervisory visits shall be made as the situation
        warrants, such as a new [personal care assistant] or in response to the physical or
        other needs of the beneficiary.

For 8 of the 100 claims in our sample, there was no evidence that a registered nurse (1) directly
supervised the personal care assistant within 2 months before the sampled service, (2) directly
supervised a new personal care assistant before the sampled service, or (3) supervised the
personal care assistant at the beneficiary’s residence.

SERVICES NOT SUPPORTED BY DOCUMENTATION

Pursuant to section 1902(a)(27) of the Act and NJAC 10: 49-9.8(b)(1), Medicaid services must
be supported by documentation of the time spent providing the claimed service.

For 7 of the 100 claims in our sample, the provider did not document the amount and type of
services performed or the documentation did not support the number of hours claimed.

NO NURSING ASSESSMENT

Pursuant to NJAC 10:60-3.5(a), a registered nurse must prepare an assessment within 48 hours
after the start of service. The registered nurse also must perform a reassessment visit at least
every 6 months, to reevaluate the beneficiary’s need for continued care.

For 5 of the 100 claims in our sample, the provider did not produce the applicable assessment.



5
 We prorated the inservice education hours required for personal care assistants that were not employed by the
beneficiary’s provider for either the entire calendar year or the preceding 12 months.


                                                         5
PERSONAL CARE ASSISTANT NOT CERTIFIED

Pursuant to NJAC 10:60-1.2, a personal care assistant must be certified by the New Jersey Board
of Nursing as a homemaker-home health aide. 6

For 2 of the 100 claims in our sample, the personal care assistant was not certified on the date of
the sampled service.

NO PLAN OF CARE

Pursuant to section 1905(a)(24)(A) of the Act and NJAC 10:60-3.1, personal care services must
be provided in accordance with a plan of care. Pursuant to NJAC 10:60-3.5(a)(1), the plan of
care must be prepared by a registered nurse.

For 1 of the 100 claims in our sample, the provider did not produce a plan of care.

NO PHYSICIAN’S AUTHORIZATION

Pursuant to 42 CFR § 440.167(a)(1) and NJAC 10:60-3.4, personal care services must be
authorized by a physician.

For 1 of the 100 claims in our sample, the provider did not produce a physician’s certification
authorizing services.

CAUSES OF UNALLOWABLE CLAIMS

Contrary to State regulations, DHS did not require providers to submit CMS-485s for personal
care services during our audit period. (Providers did not submit a CMS-485 for any of the 100
claims in our sample.) Rather, over a 7-year period, DHS implemented requirements for
providers to obtain prior authorizations through a State-mandated procedure. DHS officials told
us that, by 2006, all providers were subject to the State’s mandated requirement. However, DHS
did not fully implement its prior authorization control process before discontinuing its CMS-485
control process. The resulting gap in DHS’s control process contributed to the submission of 17
improper claims for Federal Medical reimbursement for lack of proper authorization.

In addition, until 2005, DHS did not require the four organizations accrediting personal care
service providers to review providers’ compliance with State regulations. Further, the four
accrediting organizations were not equally effective in ensuring compliance with State
requirements. Specifically, for the 36 noncompliant claims, the 4 organizations’ corresponding
error rates (number of noncompliant claims divided by number of sample claims) ranged from 25
percent to 67 percent. As a result, during a portion of our audit period, the State’s accreditation
program did not effectively ensure that personal care providers complied with State
requirements.

6
 The New Jersey Board of Nursing is administered by the New Jersey Department of Law and Public Safety,
Division of Consumer Affairs.



                                                      6
ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 personal care services claims we sampled, 36 were not made in accordance with
Federal and State requirements. Based on our sample results, we estimated that the State
improperly claimed $145,405,192 in Federal Medicaid reimbursement from January 1, 2004,
through December 31, 2007. The details of our sample results and estimates are shown in
Appendix C.

RECOMMENDATIONS

We recommend that the State agency:

        •    refund $145,405,192 to the Federal Government and

        •    improve its monitoring of the personal care services program to help ensure
             compliance with Federal and State requirements.

DEPARTMENT OF HUMAN SERVICES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DHS generally disagreed with our recommendations. In
addition, DHS stated that the sample claims associated with one provider should be excluded
from our sample frame because the provider was an outlier that did not represent the work done
by other providers. DHS also provided 41 pages of additional documentation for 8 sample
claims under separate cover.

After reviewing DHS’s comments and additional documentation, we revised our findings and
modified our statistical estimates accordingly. DHS’s comments appear in their entirety as
Appendix D.

No Prior Authorization

Department of Human Services Comments

DHS stated that it did not require prior authorization for all personal care services claims until
2005. DHS further stated that, since the service date for 15 sample claims occurred before the
implementation of this policy, no authorization was required. However, DHS conceded that a
CMS-485 or equivalent documentation should have been completed for the claims to comply
with State regulations. In addition, DHS stated that two sample claims (numbers 55 and 95)
related to a provider for whom we did not find similar errors during another review and that two
other claims (numbers 26 and 93) related to a provider (now out of business) for which DHS was
unable to review records. 7



7
 In its comments, DHS also stated that two claims (numbers 26 and 57) should have received prior authorization
before services were provided, but we did not question these claims for that reason.


                                                        7
Office of Inspector General Response

We agree that a CMS-485 or equivalent documentation should have been completed for these
claims in accordance with State regulations. DHS’s requirement for prior approval of personal
care services was codified in the NJAC effective July 3, 2006. Based on the implementation of
the requirement, we questioned a sample claim only if no CMS-485 or equivalent documentation
was submitted and no prior authorization was obtained. Regarding claim numbers 95 and 55, the
review cited by DHS covered a period after DHS had codified the prior approval process into
State regulations. For claim numbers 26 and 93, case records were available for review during
our visit to the provider.

Inservice Education Requirement Not Met

Department of Human Services Comments

DHS stated that it uncovered documentation related to four claims for which the individual
providing personal care services met inservice education requirements. Specifically, for two
claims, DHS stated that, since the New Jersey Department of Law and Public Safety, Division of
Consumer Affairs, renewed the provider’s credentials, it can be inferred that inservice training
requirements had been met. For the remaining two claims, DHS stated that it had provided
documentation that inservice training requirements were met. DHS also stated that it relies on
the accrediting agencies to enforce its inservice training requirement and that it should not be
penalized for deficiencies over which it has no control.

Office of Inspector General Response

DHS provided additional documentation for only one claim—number 91. However, the
documentation did not adequately support DHS’s statement that inservice training requirements
were met. DHS provided no additional documentation for the remaining three claims. We
cannot accept that inservice training requirements were met for any of the four claims. Certified
homemaker-health care aides can renew their credentials online, a process that does not require
the individuals to attest to having met inservice requirements.

No Nursing Supervision

Department of Human Services Comments

DHS stated that, under separate cover, it would provide documentation confirming that nursing
supervision occurred for five claims. For one of the claims (number 19), DHS stated that the
provider substituted a routine nursing supervision visit with a reassessment visit.

Office of Inspector General Response

DHS provided documentation for only four claims, and it was the same documentation that we
reviewed at the personal care providers we visited. For all four claims, the materials did not
document that a registered nurse (1) directly supervised the personal care assistant within



                                                8
2 months before the sampled service, (2) directly supervised a new personal care assistant before
the sampled service, or (3) supervised the personal care assistant at the beneficiary’s residence.

Services Not Supported by Documentation

Department of Human Services Comments

DHS stated that, under separate cover, it would provide documentation for four sample claims.
Additionally, for one claim (number 45), DHS stated that the service should be removed from
our sample frame because the beneficiary’s family was combative with provider staff and
terminated the relationship with the provider, and only 1 hour was billed on the sampled
occasion.

Office of Inspector General Response

DHS provided documentation for only one claim, and it was the same documentation that we
reviewed at the personal care provider we visited. Regarding claim number 45, we disagree that
we should remove it from our sample frame.

No Nursing Assessment

Department of Human Services Comments

DHS stated that, under separate cover, it would provide documentation for one sample claim
(number 54). DHS also stated that it was unable to review three other claims related to one
provider (Exclusive Care) because it was no longer in business and had destroyed all of its
records.

Office of Inspector General Response

The documentation submitted for claim number 54 was the same documentation that we
reviewed at the personal care provider we visited, and it did not demonstrate that a nursing
assessment took place. Regarding the three claims associated with Exclusive Care, we noted
that, during our onsite review, we found a case record for all 5 Exclusive Care claims included in
our sample of 100 claims.

Personal Care Assistant Not Certified

Department of Human Services Comments

Under separate cover, DHS provided documentation for one sample claim (number 31). DHS
indicated that the personal care assistant associated with the claim was certified by the
New Jersey Department of Law and Public Safety, Division of Consumer Affairs, Board of
Nursing, within the Board of Nursing’s 30-day certification “grace period.” Also, as part of its
41 pages of additional documentation, DHS provided documentation related to claim number 33.




                                                9
Office of Inspector General Response

The documentation DHS submitted for claim number 31 was the same documentation that we
reviewed at the personal care provider we visited and indicated that the personal care assistant
was not certified on the date of the sample service, as required by NJAC 10:60-1.2. Regarding
claim number 33, DHS’s documentation did not relate to the aide associated with the claim.

Incorrect Reimbursement Rate

Department of Human Services Comments

DHS stated that the two sample claims (numbers 2 and 32) associated with beneficiaries with a
mental health primary diagnosis should not have been paid at the lower, mental health personal
care rate. DHS stated that although these beneficiaries each had a mental health diagnosis, they
were not eligible for the mental health care program (NJAC 10:60-4.1 et seq.) but were eligible
for the nonmental health personal care program (NJAC 10:60-3.1 et seq.).

Office of Inspector General Response

The records for claim numbers 2 and 32 indicated that the beneficiaries each have a mental
health diagnosis, but both beneficiaries also had a coexisting physical condition. We accepted
DHS’s opinion on this issue and removed this finding. However, we continue to disallow claim
number 2 for a lack of prior authorization and a lack of nursing supervision.

No Plan of Care

Department of Human Services Comments

DHS stated that it was unable to examine records for the one sample claim because the provider
(in this case, Exclusive Care) was no longer in business and had destroyed all of its records.

Office of Inspector General Response

During our onsite review of documentation at Exclusive Care, we did not find any plan of care in
the record for the beneficiary associated with the sample claim.

No Physician’s Authorization

Department of Human Services Comments

DHS stated that it was unable to examine records for the one sample claim because the provider
(in this case, Exclusive Care) was no longer in business and had destroyed all of its records.




                                                10
Office of Inspector General Response

During our onsite review of documentation at Exclusive Care, we did not find any physician’s
authorization in the record for the beneficiary associated with the sample claim. We also
contacted the beneficiary’s physician, who stated that he could not locate a physician’s
authorization for the beneficiary.

Claims Related to One Provider

Department of Human Services Comments

DHS stated that claims associated with Exclusive Care should be excluded from our audit results
because DHS’s monitoring resulted in Exclusive Care’s going out of business and paying a
penalty. DHS stated that Exclusive Care settled a dispute with DHS over the use of personal
care assistant pay rates for $85,000 rather than face a hearing board. DHS stated that Exclusive
Care’s owner declared bankruptcy after the settlement was reached. DHS further stated that
Exclusive Care was an “outlier” and did not represent the work performed by other providers.
DHS stated that the nine errors attributable to Exclusive Care significantly skew the results of
our sample and unfairly penalize DHS. Finally, DHS stated that because Exclusive Care retained
no billing and case records, it could not review Exclusive Care’s records.

Office of Inspector General Response

Our statistically valid statewide random sample fairly represented personal care services claims
submitted by DHS during our audit period, including those submitted on behalf of Exclusive
Care. Therefore, we do not agree with DHS’s position that claims submitted by Exclusive Care
should be excluded from our audit results. 8 Also, Exclusive Care was taken over by Accredited
Health Services in June 2008, and during a February 2009 site visit to Accredited Health
Services, we reviewed all available supporting documentation for the five Exclusive Care
claims. 9 Further, during the planning stage of our audit, DHS officials stated that our audit
would not overlap with DHS’s audits of providers’ use of personal care assistant pay rates.




8
 We also note that DHS’s sanctions against Exclusive Care related to whether the statutory increase in personal care
assistant rates were used for staff salaries. The objective of our audit was to determine whether DHS claimed
Medicaid reimbursement for personal care services claims submitted by providers in accordance with Federal and
State requirements.
9
 During our site visit to Accredited Health Services, the former owner of Exclusive Care supplied documentation
for these claims. Of the five claims, we found that claim number 84 contained no errors, claim number 89 contained
an inservice education deficiency, and three other claims (numbers 23, 26, and 93) contained a nursing assessment
deficiency.



                                                        11
Personal Care Services Program Monitoring

Department of Human Services Comments

DHS stated that “there is always room for improvement in monitoring its programs.” However,
DHS also stated that it believes that its monitoring of personal care service programs during the
audit period was “very good” and pointed to its monitoring of Exclusive Care as proof of its
monitoring efforts.

Office of Inspector General Response

We agree with DHS that its monitoring can always be improved. Even if we ignored those
claims associated with Exclusive Care, we maintain that improved monitoring of DHS’s personal
care services program would help ensure that providers comply with Federal and State
requirements.

                OTHER MATTER: BENEFICIARY-IDENTIFIED PROBLEMS
                        WITH PERSONAL CARE SERVICES

We interviewed 44 of the 100 sampled beneficiaries or their family members to determine
whether quality-of-care issues existed, what service type and frequency were involved, and
whether any service-related problems existed. We did not interview the remaining 56 sampled
beneficiaries or their family members because the beneficiaries were deceased, had moved out of
the State, declined to be interviewed, or could not be located. Of the 44 individuals interviewed,
20 said they had problems with a personal care assistant or a personal care services agency,
including allegations that personal care assistants falsified timesheets, verbally abused
beneficiaries, and stole property. 10 Table 2 summarizes the problems identified and the number
of beneficiaries who encountered each type of problem.




10
   We were unable to determine whether any of the identified problems occurred on the specific service date drawn
in our sample. For some beneficiaries, we were able to determine that the problems occurred during our audit period
or that the aide on duty on the service date we reviewed was the cause of the beneficiary’s problems. Not all of the
problems occurred during our 4-year audit period.



                                                        12
                       Table 2: Problems Identified in Beneficiary Interviews
                                                                            Number of
                              Type of Problem                              Beneficiaries 11
     Personal care assistant scheduling and turnover                             7
     Personal care assistant engaged in activities not related to care           7
     Beneficiary did not receive a plan of care                                  6
     Theft of property by the personal care assistant                            4
     Language barrier with the personal care assistant                           3
     Verbal abuse by the personal care assistant                                 2
     Plan of care not followed by the personal care assistant                    2
     Other                                                                       3

Below are examples of some of the problems identified in our interviews.

PERSONAL CARE ASSISTANT ENGAGED IN ACTIVITIES NOT
RELATED TO CARE

Of the 44 beneficiaries and family members we interviewed, 7 indicated that a personal care
assistant engaged in activities not related to care. For example, it was alleged that, during duty
hours, personal care assistants would sleep, talk on their cell phones, or arrive with their
children. It was also alleged that personal care assistants did not work for the entire time
recorded on their timesheets. Further, some alleged that personal care assistants arrived late, left
early, forged the beneficiary’s signature on the timesheet, and added an additional day worked to
the timesheet.

THEFT OF PROPERTY

Of the 44 beneficiaries and family members we interviewed, 4 indicated that a personal care
assistant stole property from them. Among items allegedly stolen were the beneficiary’s
medication, clothing, a purse with miscellaneous items, linens, a diamond ring valued at $5,000,
and cash. One beneficiary’s parents said that they filed a police report about the ring. 12
However, the parents said that they filed the police report only to claim the loss of the ring on
their homeowners’ insurance policy. In the police report, the parents did not implicate the
personal care assistant in the alleged theft, nor did they notify the personal care provider.

LANGUAGE BARRIER WITH PERSONAL CARE ASSISTANT

Of the 44 beneficiaries and family members we interviewed, 3 indicated that a language barrier
existed between them and the personal care assistant. Two beneficiaries said that they could not
communicate with the personal care assistant because the aide did not speak English. The other
beneficiary’s daughter said that although her mother spoke only Spanish, the personal care
provider sent only English-speaking aides.
11
     The total exceeds 20 because 9 beneficiaries identified more than 1 problem.
12
     The parents live with the beneficiary, who is incapable of fully communicating because of her physical condition.


                                                           13
VERBAL ABUSE BY PERSONAL CARE ASSISTANT

Of the 44 beneficiaries and family members we interviewed, 2 indicated that a personal care
assistant verbally abused them. One beneficiary alleged that a personal care assistant yelled at
her when she asked the aide to do the laundry. A second beneficiary alleged that two different
personal care assistants verbally abused him. A family member witnessed both of these alleged
incidents and notified the personal care provider.




                                               14
APPENDIXES
                                                                                        Page 1 of 2


                APPENDIX A: FEDERAL AND STATE REQUIREMENTS
                    RELATED TO PERSONAL CARE SERVICES

•   Section 1905(a)(24) of the Social Security Act and implementing Federal regulations
    (42 CFR § 440.167) permit States to elect, as an optional Medicaid benefit, personal care
    services furnished to an individual who is not an inpatient or resident of a hospital, nursing
    facility, intermediate care facility for persons with mental retardation, or institution for
    mental disease. The statute specifies that personal care services must be: (1) authorized for
    an individual by a physician within a plan of treatment or in accordance with a service plan
    approved by a State, (2) provided by an individual who is qualified to provide such services
    and who is not a member of the individual’s family, and (3) furnished in a home or other
    location.

•   Federal regulations (42 CFR § 440.167(a)(1)) and the New Jersey Administrative Code
    (NJAC) 10:60-3.4 specify that personal care services must be authorized by a physician.

•   Office of Management and Budget Circular A-87, Cost Principles for State, Local, and
    Indian Tribal Governments, establishes principles and standards for determining allowable
    costs incurred by State and local governments under Federal awards. Section C.1.c. of
    Attachment A provides that to be allowable, costs must be authorized or not prohibited by
    State or local laws or regulations.

•   The beneficiary’s need for services must be certified in writing to the provider by the
    attending physician (NJAC 10:60-3.4). The nurse must immediately record and sign a verbal
    order and obtain the physician’s countersignature, in conformance with the provider’s written
    policy.

•   A registered nurse must perform an initial assessment within 48 hours of the start of service
    (NJAC 10:60-3.5(a)(1)). A reassessment visit must be performed at least once every
    6 months, or more frequently if the beneficiary’s condition warrants, to reevaluate the
    beneficiary’s need for continued care (NJAC 10:60-3.5(a)(3)).

•   Within 5 days of a provider’s assessment or reassessment of a beneficiary, the provider must
    submit the Form CMS-485 (CMS-485) to the Medical Assistance Customer Center that
    serves the beneficiary’s county (NJAC 10:60-1.8(a)). The CMS-485 collects information on
    the beneficiary’s medical condition and treatment orders. Upon receipt of the CMS-485,
    Division of Disability Services (DDS) or Division of Medical Assistance and Health Services
    (DMAHS) staff must conduct concurrent quality assurance reviews on a selected number of
    cases. The reviews must include visits to the beneficiary’s place of residence. DDS or
    DMAHS staff must also conduct random postpayment quality assurance reviews.

•   All personal care services are required to have prior authorization by DDS, effective July 3,
    2006 (NJAC 10:60-3.9(a)). To obtain prior authorization, a registered nurse must provide a
    face-to-face evaluation of the beneficiary and complete a form that includes information on
    10 elements used to measure the beneficiary’s need for personal care services (NJAC 10:60-
    3.9(b)). The provider transmits the evaluation form with a prior authorization request to
                                                                                         Page 2 of 2


    DDS, which determines the number of hours of personal care services authorized for the
    beneficiary.

•   A registered nurse must prepare a plan of care for the personal care assistant to implement
    (NJAC 10:60-3.5(a)(1)). The plan of care must be prepared within 48 hours of the start of
    service. The plan of care must include the tasks assigned to meet the specific needs of the
    beneficiary.

•   A registered nurse must provide direct supervision of a personal care assistant at a minimum
    of 1 visit every 60 days, initiated within 48 hours of the start of service, at the beneficiary’s
    residence during the personal care assistant’s assigned time (NJAC 10:60-3.5(a)(2)). The
    purpose of the supervision is to evaluate the personal care assistant’s performance and to
    determine that the plan of care has been properly implemented. Additional supervisory visits
    must be made as the situation warrants, such as a new personal care assistant or in response
    to the physical or other needs of the beneficiary.

•   The personal care assistant must be certified by the New Jersey Board of Nursing
    (NJAC 10:60-1.2).

•   The personal care assistant must successfully complete a minimum of 12 hours inservice
    education per year offered by the personal care provider (NJAC 10:60-1.2).

•   Providers are required to keep such records as are necessary to fully disclose the extent of
    services provided (NJAC 10:49-9.8(b)(1)). Where such records do not document the extent
    of services billed, payment adjustments are necessary (NJAC 10:49-9.8(b)(3)).
                APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was personal care services claim lines (claims) submitted by 258 providers in
New Jersey (the State) during our January 1, 2004, through December 31, 2007, audit period that
were claimed for Federal Medicaid reimbursement by the State.

SAMPLING FRAME

The sampling frame was a computer file containing 19,554,975 detailed paid claims for personal
care services submitted by 258 providers in the State during our audit period. The total Medicaid
reimbursement for the 19,554,975 claims was $1,058,406,073 ($533,133,954 Federal share).
The Medicaid claims were extracted by our advanced audit techniques staff from the State’s
Medicaid payment files provided to us by staff of the State’s Medicaid Management Information
System fiscal agent.

SAMPLING UNIT

The sampling unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We sequentially numbered the 19,554,975 detailed claims. After generating 100 random
numbers, we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
             APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                            Sample Details and Results
                                                                          Value of
               Value of                                                  Unallowable
                                          Value of       Unallowable
                Frame                                                      Claims
Claims in                    Sample        Sample          Claims
               (Federal                                                   (Federal
 Frame                        Size     (Federal Share)
                Share)                                                     Share)
19,554,975   $533,133,954      100          $2,854            36           $1,100


                           Estimated Unallowable Costs
              (Limits Calculated for a 90-Percent Confidence Interval)

                     Point Estimate                  $215,141,879
                     Lower Limit                     $145,405,192
                     Upper Limit                     $284,878,566
                                                                                                   Page I of 14

                          APPENDIX D: STATE AGENCY COMMENTS 





                                             .$>1.01•• f ;J.Il.1u J!.ro.V
CIIRIS C IUUSTll                           DIPAkTM ENT 0 1' H UMAN St:ItVICES
   Go,'tmtN
                                D IV ISION Of' M £l)1CAL AsSISTANCE   ""'I> JIIW.TII SERVICIOS
KIM GUADAG!'lO                                        POUOx111
                                                                                                 JEMOIFU VEl.a
  I.l Gooy"""                                   nf>lTOI't. NJ 086Z5-01 11
                                                                                                  c-.......""" 

                                                    June 24 . 2011


          James P Edert
          Regional Inspector General for Audit Services
          Department 01 Health and Human Services
          Office of Inspector General
          Office of Audit Services Region II
          Jacob K. Javils Federal Building
          26 Federal PlazCl - Room 3900
          New York, NY 10278

          Report Number; A-02-09-01002

          Dear Mr Edert.

          I am wnllng In response 10 your letter daled March 28, 2011 concernmg the Department
          of Health and Human Services, Office of the Inspector General's (OIG) draft report
          entitled "Rovlew Df Medicaid Personal Care Claims Sub/wt/ed by Providers in New
          Jersey~.   Vour letter provides the opportunity to comment on thiS draft report,

          The objectIVe of thiS review was to determine if the Slate claimed Medicaid
          reimbursement for personal care services claims submitted by providers In accordance
          With Federal and Siale reqUirements during the audit penod of January 1, 2004 through
          December 31 , 2007 SpeCifically, the purpose of the Stale's personal care service
          program which IS operated by the New Jersey Department of Human Services' DIVISion
          of Disability Services (DDS) IS to accommodate beneficiaries' need for long. term chroniC
          or maintenance health care, as opposed to their need for short· term care required for
          some acute illnesses Personal care services Include personal care, household duties
          and health related tasks performed by a qualified indiVidual In a beneficiary's place of
          residence, under the supervision of a registered nurse, as certified by a phYSICian in
          accordance With a written plan of care

          The draft audit report concluded that New Jersey's claims for reimbursement of Medicaid
          personal care services submitted by providers did not fully comply With Federal and State
          reqUirements. While 63 of the 100 claims in the random sample fully complied With all
          Federal and State requirements, the remaining 37 claims did not meet one or more of the
          applicable requiremen ts The report states that the defiCienCies occurred because the
          State did not effectively monitor the personal care services program for compliance Wi th
                                                                                          Page 2 of 14



Mr. James P. Edert
June 24, 2011
Page 2


certain Federal and Slate requirements Based upon the sample results, the auditor
estimated thai New Jersey was improperly reimbursed $1 45,805,934 in Federal Medicaid
reimbursement during the January 1, 2004 through December 31, 2007 audit period .

We appreciate the opportunity to provide this response to the draft QIG audit report
Following are the auditors' recommendations and the DiVision of Medical Assistance &
Health Services (DMAHS) responses:

Recommendation 1:

The OIG recommends that New Je rsey refund $145,805,934 to the Federal
Government:

The State does not concur with this recommendation . We have addressed each category
of deficiencies below and in some cases add itional documentation to support Sample
Claims was located and forwarded directly 10 the auditor, Attached is a list of each
Sample C laim WIth the issue(s) involved and documentation provided under separate
cover. Furthermore, as outlined below, Ihe State believes that the Sample C laims
attributable to Exclusive Care should not have been included in the sampling frame.

     I. No Prior Authorization · 17 C laims:

      The Division did nol begin prior authorization for 100 percent (from 1 hour) of
      claims until 2005 . Given tha t 15 of the claims are for less then 25 hours of service,
      which were rendered prior to the date of mandatory authorization. ODS believes it
      had no obligation to authori ze the claims in question since no authorization was
      required . The Division concedes that a eMS Form 485 should have been
      completed for these claims in compliance with N.J.A.G. 10: 140· 1.8(a) ; however a
      section of the Medicare Program Integritv Manual, Transm ittal Number 23 , March
      18, 2002 allows agencies an alternative \0 completing the Form #485. II stales:

            Amendments to Chapter 6, Section 3.1 clanfy that completion of a
            e MS Form 485 is not a eMS requirement However, Home Heallh
            Agencies (HHAS) musl have the plan of care elements available in a
            readily identifiable location within the med ical record.

      It does not appear Ihal a Form 485 was meant for the purpose of authorizing a
      claim but was meant to be used for the purposes of notification and as tool for
      uniformity in record keeping . Further, the Section continues "that failure to
      complete the Form 485 does not necessarily justify the denial of a claim for
      services.' Given that the claims were subsequently processed and paid without
      issue, it is the State's position that neither the vendor of the services nor ODS
      would have had cause to believe that there was an element of non-compliance .
                                                                                        Page 3 of 14



Mr James PEden
June 24. 2011
Page 3


     In a review of these cases, the vendor of services (8ayada Nurses) for claim
     sample #95 and #55, notes that there were no discrepancies/issues found on this
     file during the 2009 audit. In an effort to resolve the issue, they have submitted
     documentation to support their compliance which has been sent to the auditor
     under separate cover.

     DDS concurs that two of the sample claims (Sample #26 and #57) should have
     been prior authorized by DDS because the dates of service were after the date on
     which prior authorization was mandated and will take action to recoup any
     payments made in error.

     Sample Claims #26 and #93 in this category were provided by Exclusive Care who
     went out of business after paying an S85.000 recoupment to ODS on another
     administrative matter. Immediately after making thiS payment, the owner declared
     bankruptcy and destroyed aU records. making further recoupment or examination
     of records impossible. The issue concerning Exclusive Care is discussed below
     since several other Sample Claims relate to this provider.

    II . The Personal Care Assistant Did Not Receive In-Service Education - 13
         Claims:

     The Division has uncovered documentation related 10 four cla ims which
     demonstrates that the individual PCA did. in fact. have the requisite in-service
     training . In two of the cases, the provider's credentials were renewed by the
     Division of Law and Public Safety for the same period and furnishing proof of in­
     service training would have been required as part of that process. One can then
     infer that in-service requirements were mel given that the credential was renewed .
     In the third and fourth cases, a training recordlverification has been p rovided under
     separate cover

     As detailed in the Audit Report, the Division is dependent on the four accreditation
     bodies to monitor the agency's compliance with this requirement . The accrediting
     bodies use a sampling method to determine compliance. Each agency is awarded
     a score, and agencies that attain a passing score are not reported to the ODS.
     desp ite the fact that there may be a few errors and exceptions. Furthermore. there
     is a dispute in the industry with regard 10 who "owns" an individual training record;
     the individual aide or the agency that provided and paid for the education.
     Individ ual aides often find It difficult or impossible to obtain in-service training
     records that were provided while they were employed by another agency, either
     because of animosity between the parties or where the agency may have ceased
     to exist.

     ODS is working with the accrediting bodies to develop a standard regarding the
     transfer of an employee's training records when there is a separation from the
                                                                                           Page 4 of 14



Mr James P. Eden
June 24 , 2011
Page 4


      agency where the train ing was provided. However, DDS must rely upon Ihe
      accred iting bodies to enforce this standard . It is the Slate's position that the Slate
      should not be penalized for deficiencies Ihat in many cases it does not have
      control over,

   III. 	 There Was No Nursing Supervis ion       8 Cla ims:

     DDS is providing documentation under separate cover confirming that nursing
     supervision occurred as required during the time period in five of Ihe cases noted
     in the claim sample. With regard to Sample Claim #19, the agency substituted a
     routine nursing supervision visit with a reassessment visit during which the client's
     status and level of care were re-determined . The HHA was also present at this
     meeting, and supervision <:Ilso took place.

   IV. 	 There Was No Documentation of Services Provided - 7 Claims :

     DDS is providing document<:ltion under separa te cover of bill ing records for four
     cases that detail the dates and times of services rendered, service codes. and
     hours billed .   DDS believes that the supporting documentation meets the
     requirement. Additionally, Mercy Home Care has submitted a letter explaining that
     the family of Sample Claim #45 became combative with the agency staff regarding
     duties and refused to sign time records and allow supervisory staff into the house
     when they endeavored to mediate the situ<:Ition . The family ultimately terminated
     service with the agency to seek services elsewhere. Given that only one hour was
     billed on one occasion , the error should be <:Ibated as an outlier caused by the
     family situation and not the <:Igency or DDS . Consequently, the State does not
     believe this sample claim should be included in the sampling frame ,

   V . 	 There Was No Nursing Assessment - 5 C laim$ :

     DDS is providing documentation under separate cover that demonstrates that a
     nursing assessment took place for Sample Claim #54 . Also, three claims in this
     category belong to Exclusive Care , DDS W<:lS unable to review any claims from
     Exclusive Care as previously detailed above, The issue concerning Exclusive
     Care is discussed below since several other Sample Claims relate to this provider.

   VI , 	 The Personal Care Assistant Was Not Certifi ed By The NJ Board of Nursing
          - 2 Claims:

     DDS is submitting documentation under separate cover rega rding Sample Claim
     #31 that demonstrated that the aide was within a 30-day certification ' grace
     period" granted by the NJ Board of Nursing when the services were rendered on
     December 16. 2003.
                                                                                          Page 5 of 14



Mr. James P. Eden
June 24, 201 1
Page 5


   VII . 	 The Prov ider Improperly Claimed A Higher Reimbursement Rat e                    2
           Claims:

      T he State does not agree with this audit finding. T he draft audit report claims that
      in both cases the primary diagnosis of the service recipient was a mental health
      diagnosis, and therefore, they should have been serviced under N.J.A.G. 10:60
      Subchapter 4, colloquially known as "Mental Health PCA., " The services under this
      subchapter are billable al a lower rate . A review of the subchapter and discussion
      with the Deputy Commissioner overseeing the Division of Mental Hea lth Services
      confirms that this is a hybrid service to provide limited PCA benefits as part of a
      Community Rehabilitation package of services to those with mental illness. The
      services differ from those covered under Subchapter 3 in that they are offered
      more as a tool for community integration then for ADL support and are provided to
      individuals on a short term basis, who may be transitioning to the community after
      resid ing in a c linical or acute care setting . Neither of the cases that were selected
      in the audit met these criteria. The service recipients d id have mental health
      d iagnoses but were not enrolled infor eligible for any other community
      rehabilitation services. Each individual also had co-existing physical disabilities
      that warranted the need for PCA services under Subchapter 3 that were provided
      and appropriately biUed . Further, both of the vendors that provided the service
      were not providers for the mental health provider network, and therefore , are
      ineligib le to provide services under Subchaprer 4. The providers also would have
      had no knowledge of their client's interaction with the menta l health system and
      the respective services each were receiving. if any .

      DDS has also been advised that it is illegal to reimburse at a different rate for
      identical services, solely on the basis of the service reCipient's diagnosis . These
      two Sample Claims should be categorized as complying with all Federal and State
      requirements.

  VIII . There Was No Plan of Care On File        1 Claim :

      The single case in violation of this rule was serviced by Exclusive Care. As
      detailed above, DDS was unable to examine the records for this case or to contact
      anyone at the agency to resolve the matter or to provide an explanation . The issue
      concerning Exclusive Care is discussed below since several other Sample C laims
      relate to this provider.

   IX. There Was No Phys ician's Auth o rizati o n In Pla ce      1 Claim :

      The single claim in violation of this rule was serviced by Exclusive Care . As
      detailed above, the Division was unable to examine the records for this case or to
      contact anyone at the agency to resolve the matter or to provide an explanation.
                                                                                         Page 6 of 14



Mr. James P. Eden
June 24, 2011
Page 6


         The issue concerning Exclusive Care is discussed below since several other
         Samp le Claims relate to this provider.

     X. Excl usive Care - 9 Deficiencies :

         Exclusive Care was a problem agency within the peA program . DDS has had
         many issues related to the monitoring of this agency. Most notably in 2006, DOS
         took the agency for a Fair Hearing to dispute their use of a statutory raise in the
         PCA rate that was used by the agency for administrative costs when it was
         mandated to be used for staff salaries. While preparing for the Fair Hearing, DDS
         noted several ·red flags· related to the agencies shoddy business practices_ The
         agency was advised that unless prompt remedial action was taken its provider
         status would be suspended. The Fair Hearing was resolved by an impromptu
         settlement in which DOS on behalf of OMAHS recouped $85,000. Almost
         immediately thereafter, the owner of Exclusive Care closed the doors of the
         agency , declared bankruptcy, and ceased contact with atl parties . No billing and
         case records were retai ned. This ha s made the review of the records in
         question with in this audit Impossi ble.

         Of the 56 deficiencies contained in the 37 Sample Claims that did not comply with
         Federal and State requirements, 9 deficiencies were anributable to Exclusive
         Care _ Seven of the nine deficiencies were found In Just 2 claims. The State
         believes that Including any claims attributable to Exclusive Care significantly
         skews the sample data and, consequently. unfairly penalizes the State ,

       The Division believes that its di ligent monitoring of this agency forced it out of
       business. fearing that we had uncovered only the "tip of the iceberg ." We request
       that in light of the circumstances and the sampling error caused by these claims.
       they be removed from the error batch as outliers . since we believe they are not
       representative of the work done by other agencies or the oversight by the Oivision.

Recommendation 2:

The DIG recommands that DMAHS Impro ve its monitoring of the personal care
services program to ensure compl iance w ith Federal and State requirements :

While the State agrees that there is always room for improvement in mOnitoring its
programs. the State believes that Its monitoring of personal care services programs
during the aud it penod was very good as evidenced by its diligent monitoring of the
Exclusive Care agency. The OIG uses the ExclUSIVe Care errors as evidence of poor
mon itoring when in fact DDS's monitoring of this agency resulted in its removal for their
program. The StCite believes this supports the position that DDS's monitoring of the
personal care services program is very good
                                                                                        Page 7 of 14




Mr. James P. Edert
June 24 , 2011
Page 7


If you have any questions or requ ire additional information , please contact me or Richard
Hurd at 609-588-2550 I would like to thank the OIG audit team for their professionalism
throughout the audit and our review of their findings and recommendations.

                                         Sincerely ,



                                         Valerie Han
                                         Director

VH :H
c:      Jennifer Velez
        Richard Hurd
                                                                                                                                                                   Page 8 of 14 





                                                          PCA AUDIT DOCU MENTATION


        Sample
                                    Provider              Client Name                        Issue(s )                        Oocumentiltion Provided
          No.

                          ,             ,
                                                                          ~
           I


           2      I "'"d, N"~,. UO""                                       , ,R",
                                                                                                                      Prior authorization was not required at
                                                                                                                     ~Of                '           .


           3      I ",,,,, No"'''. "~"d                                    ~:~~,:             i
                                                                                                  i                  Id,', ~,::,~~:~
                                                                                                                            .      i
                                                                                                                                                . 'i "~:~~'~'"
                                                                                                                                                      Record
                                        ,
           4              i
                                                        ~-                 NO
                                                                                                                                            ,
                                                                                                                                                 ~I '""','''''
                                                                                                                        i
           5                        '. Edi,,"                              No   ""oe,                                I d,'"       ,i
                                                                                                                      None-waiting for agency to forward
           6                                                                        , 'Ed.        ,      1N0i M,I                 ,
                                                 "
           7      I "'"Ie COO",                                            NO

                     ,              ,                                                                                             ,         i    ~~, r~quired at
           8                                                               No   ""oe,             ,                  I "I"
                                    A",~y ,
                  1~1x
                                '               Porth
           9                                                               NO
                                                                                              ,                                        "c," wo~'"        i
          10
                                :A"'~y,
                                                        ~-                   or.­                                    I F;;~
                                                                           NO
          "
                              , C,,,
          "                                                                NO




          "                                             J-                 No """,                i
                                                                                                                     I ~~t~ lauthOriZation
                                                                                                                                   , . was no~ required at

          14


          "       I M~i m'      ,
                                                        ---­               NO

                                                                                    ' ,Ed.        ,      I Nol M,I                ,
                                                                                                                               i i~~or agency


Ollice of Inspector General Note: We ha ve reda cted portions of the DI·IS's comments that contain personally ident ifiable infonnalion.
                                                                 Page 9 of 14




peA AUDIT DOCUMENTATION




                                         "
           No Physician Authorization
           No Nursing Assessment




                                         "
                                        ii   agency to forward
                                                                                            Page 10 of 14




                peA AUDIT DOCUMENTATION


                                            i             Ii                 i
                                          date 01                                i
                                          cert if ication              11130/03 ; however
                                          il was confi rmed w~h the NJ BON that
                                          aides are given a 30·day grace period to
                                          renew the ir certif~ation which means aide
                                          was still certified on selVices were
                                          provided _ IT had been denermined lha
                                          the aide did not renew her certification
                                          until 1127104; therefore a repayment lor
                                          the services she provided duri ng the 27
                                                        wsa not certiiled will be made In




          ill
                                                     "



                                          Prior authorization was not required at




Agency,
                                                                                                                             Page 11 of14




                                           pe A AUDIT DOCU MENTATION


                                       I
43   I Act""         ,                                 NO

                                                       NO



                                       •
44

45    M"~                                              No            ,          I M'~ '                    W,rt.

46                                                     NO



47                                                     NO

48   I ",,,,, I          ,                             NO

                         ,         ,   I
49   I "'CO" I                                         NO


50

51
     I ""yodo,
                  I CO"
                                       ~               NO
                                                                         I      I No~I""                         ;R,,,,"

52                leo"                                 NO

53                   I, V"".                           NO

                                                       N~ ~~~~:~ ~eassessmenl    H ~:: Health Aide TIme ~r:~v;:~~~rt ;
54   I ""   od, N,           Lio                       No N, ,,'.        ,
                                       I                                        I ~~t~ ,aulhoriza~ion was not re.quired at
55   I ",yodo No"",, Uo'oo                             No   p"",         I
                                                       ~: No,,'''9
56   I eo" "   Hom,                                                                            ,eo 100""   ..lot,
                                                                   Page 12 of 14




PCA AUDIT DOCU MENTATION



            No     Supervision   HHA Annual Performance




                                 ii   for agency to forward




                                 Activity Note; Nursing Progress
                                                                                                                    Page 13 of 14




                                PCA AUDIT DOCU MENTATION




                                                                      None-Agency cannot provide
                                                                      documenta tion, Database crashed and
Vi$~ing   Home Makers, Jersey               NO Prior Authorizat ion   they cannot retrieve any Informa.ti on from




                                                                      month reassessment;
                                                                      Reassessment/Supervisor Reporl
                                                                      Cannot        documentation fo r tra ining
                                                                                       and they cannot
                                                                                                                       Page 14 of 14 





                              PCA AUDIT DOCUMENTATION


                                                                                           was not
                                         No Prior                                      ; see narrati'le.   im,,,",,,
                                                                            ii     for   agency to forward

                                         No Nursing Reassessment
                                         No Prior AuthoriZation
                                         No          Assessment




                                                                   Prior authorization was not required at



                                                                                 I I



Lo',i.; C,,, Agency, Jersey
